           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    THE ADMINISTRATIVE COSTS
      CLAIMED BY THE TEXAS
    DISABILITY DETERMINATION
             SERVICES

   March 2004     A-15-02-12051




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
MEMORANDUM

Date:   March 11, 2004                                                    Refer To:

To:     Horace L. Dickerson, Jr.
        Regional Commissioner
         Dallas

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the Texas Disability Determination Services
        (A-15-02-12051)


        OBJECTIVE
        Our objectives were to:

        •   evaluate the adequacy of internal controls over the accounting and reporting of
            administrative costs claimed for the Texas Disability Determination Services
            (TX-DDS) as well as to determine whether the controls were sufficient to ensure the
            proper draw down of funds and accounting and reporting of administrative costs;

        •   determine whether costs claimed on the State Agency Report of Obligations for SSA
            Disability Programs (Form SSA-4513) for the period October 1, 1998 through
            September 30, 2001, were allowable and properly allocated; and

        •   determine whether the aggregate of the Social Security Administration’s (SSA) funds
            drawn down agreed with total expenditures reported for disability determinations in
            Fiscal Years (FY) 1999 through 2001.

        BACKGROUND

        The Disability Insurance (DI) program was established in 1956 under Title II of the
        Social Security Act (Act). The program provides a benefit to wage earners and their
        families in the event the wage earner becomes disabled. The Supplemental Security
        Income (SSI) program was created as a result of the Social Security Amendments of
        1972 with an effective date of January 1, 1974. SSI (Title XVI of the Act) provides a
        nationally uniform program of income to financially needy individuals who are aged,
        blind, and/or disabled.
Page 2 – Horace L. Dickerson, Jr.

SSA is primarily responsible for implementing policies governing the development of
disability claims under the DI and SSI programs. Disability determinations under both
DI and SSI are performed by Disability Determination Services (DDS) in each State, or
other responsible jurisdiction, according to Federal regulations.1 In carrying out its
obligation, each DDS is responsible for determining claimants’ disabilities and ensuring
that adequate evidence is available to support its determinations. To assist in making
proper disability determinations, each DDS is authorized to purchase consultative
medical examinations, x-rays and laboratory tests to supplement evidence obtained
from the claimants’ physicians or other treating sources. SSA pays the DDS for
100 percent of allowable expenditures.

Each year, SSA approves a DDS budget. Once approved, the DDS can withdraw
Federal funds through the Department of the Treasury’s (Treasury) Automated
Standard Application for Payments (ASAP) system. Cash drawn from the Treasury to
pay for program expenditures is to be drawn according to Federal regulations and in
accordance with intergovernmental agreements entered into by Treasury and the States
under the authority of the Cash Management Improvement Act of 1990.2 At the end of
each fiscal quarter, each DDS submits to SSA a Form SSA-4513 to account for
program disbursements and unliquidated obligations.

The designated agency for the State of Texas is the TX-DDS, a division within the
Texas Rehabilitation Commission (TRC). Parent agencies, such as the TRC, often
provide administrative services (such as accounting, purchasing, and personnel) to the
State-designated DDS.

SCOPE AND METHODOLOGY
We obtained evidence to evaluate the appropriateness of recorded financial
transactions under the provisions of Office of Management and Budget Circular A-87,
Cost Principles for State, Local and Indian Tribal Governments.

We reviewed $247,350,859 in administrative costs the TRC reported for TX-DDS
operations for the period October 1, 1998 through September 30, 2001. We audited the
Forms SSA-4513 as of December 31, 2001, September 30, 2002, and March 31, 2003,
for FYs 1999, 2000, and 2001, respectively. This amount included costs associated
with SSA’s Automation Investment Funds and Information Technology System funding
activities. We also:

•     reviewed applicable Federal laws and regulations and pertinent parts of SSA’s
      Program Operations Manual System (POMS), section DI 39500, DDS Fiscal and
      Administrative Management;


1
    42 United States Code (U.S.C.) § 421; 20 C.F.R. part 404, subpart Q, and part 416, subpart J.
2
    31 Code of Federal Regulations (CFR) Part 205 and Public Law No. 101-453.
Page 3 – Horace L. Dickerson, Jr.

•   interviewed TRC and TX-DDS staff;

•   documented our understanding of the TRC’s and TX-DDS’ systems of internal
    controls over the accounting and reporting of administrative costs;

•   evaluated and tested internal controls regarding accounting and financial reporting;

•   traced the administrative expenditures TRC reported on Forms SSA-4513 to its
    accounting records;

•   documented our understanding of the TRC’s procedures and internal controls for
    drawing down SSA funds;

•   analyzed TRC draw downs of SSA funds and reconciled them with reported
    expenditures;

•   reviewed the Texas Single Audit reports and related working papers as they were
    related to direct costs for the period September 1, 2000 through August 31, 2001;

•   conducted a physical inventory of equipment items TRC purchased during our audit
    period and selected computer hardware items SSA provided to TX-DDS;

•   reviewed a random sample of 600 cases of other non-personnel and medical service
    costs for FYs 1999 through 2001. Also, we reviewed a judgmental sample of
    101 cases which included consultant physician payroll, medical evidence of record,
    and all other non-personnel costs for FYs 1999 through 2001;

•   conducted analysis of consultative examinations (CE) by comparing the TX-DDS
    maximum allowable payment schedule to amounts paid for services to vendors; and

•   recomputed indirect cost for FYs 1999 through 2001 using approved indirect cost
    rates.

We determined that the data used in this report is sufficiently reliable given the audit
objective and intended use of the data. Any data limitations are minor in the context of
this audit and the use of this data should not lead to an incorrect or unintentional
message. Our testing of the data reliability included tracing individual transactions to
the source documentation, recalculating the totals of the costs categories, reconciling
the data to the Forms SSA-4513, and other tests deemed necessary.

We performed work at the TRC, TX-DDS and a contracted certified public accounting
firm who conducted Single Audit3 work at TRC, all located within Austin, Texas. We
3
 The 1984 Single Audit Act, as amended in 1996 by Public Law No. 104-156, requires non-Federal
entities that expend $300,000 or more per year in Federal awards to have a single or program-specific
audit conducted that year; See 31 U.S.C. § 7502.
Page 4 – Horace L. Dickerson, Jr.

conducted our audit work from August 2002 through April 2003. Our audit work was
completed in accordance with generally accepted government auditing standards.

RESULTS OF REVIEW
Except for the CE and related indirect costs issues discussed below, we determined
that costs claimed on the Form SSA-4513 for the period October 1, 1998 through
September 30, 2001, were allowable and properly allocated and the system of internal
controls was effective. The aggregate of the SSA funds drawn down agreed with total
expenditures as reported by TX-DDS for disability determinations in FYs 1999 through
2001.

CE PAYMENTS EXCEEDED AUTHORIZED FEE SCHEDULE

We determined that the TX-DDS paid for CEs in excess of their authorized fee schedule
known as the Maximum Allowable Payment Schedule (MAPS). Texas hospital
providers were paid higher payments by using a methodology known as a rate of cost to
charge (RCC) method. Under this methodology the TX-DDS pays the hospital provider
a percentage of its normal customary billing amount. A hospital provider who has an
RCC does not have to adhere to MAPS, and amounts paid are in many instances
higher than MAPS. This is contrary to POMS DI 39545.210, 1. a., which states, “The
DDS will consider its fee schedule as a maximum payment schedule. Authorized
payments will represent the lower of either: the provider’s usual and customary charge
or, the maximum allowable charge under the fee schedule.”

TX-DDS believed this practice was allowed because some hospital providers would not
accept the MAPS amounts. The TX-DDS staff believes that not having those providers
would adversely effect the time it takes to process a disability determination case. We
contacted SSA’s Dallas Regional Office (RO) to obtain information on this issue. We
attempted to find out if any special waiver or privilege was provided to hospitals with
RCCs. According to the SSA Dallas RO, the RCC rates were implemented a number of
years ago when different SSA and DDS employees were involved in overseeing these
issues. The validity of their use had never been discussed.

Hospital CEs Exceed MAPS

We obtained a listing from TX-DDS of the CE vendors who had used an RCC during the
period of our audit. Using the vendor identification number of the vendors using RCC
for that year, we obtained the related CEs processed during FYs 1999 through 2001
from the TX-DDS VERSA4 data base. The VERSA record, used at the DDS to control
CE purchases, is the basis for recording the cost in the Texas accounting system. We
found the number of vendors using an RCC was 190, 185, and 181 for FY 1999, FY
2000, and FY 2001, respectively.

4
 Disability claims are processed on an IBM Corporation Model AS/400 computer system, using VERSA
software, one of three primary claims processing applications used by the TX-DDS.
Page 5 – Horace L. Dickerson, Jr.

We then sorted the records by current procedural terminology (CPT) code which
identifies the type of service provided for the CE. We found for FY 1999 that
106 different CPT codes were used, for FY 2000, 102 CPT codes were used, and for
FY 2001, 102 CPT codes were used. We compared the amount that was authorized to
be paid under MAPS to the amount actually paid the hospital using an RCC. We found
of the 52,692 records paid using RCC, 49,071 exceeded MAPS. The amount paid to
hospital providers exceeded the MAPS allowed amount by $3,611,678. The schedule
below indicates the actual amount paid to the vendors, and the amount paid in excess.

                                      CE Payments
                              with Hospital RCC Agreement
                                   in Excess of MAPS

                                                            Number of
           Number of      Number of                         Records In      Total Cost of
           CPT Codes       Records        Total Cost of   Excess of MAPS   Records Found
          Identified in Identified as a   Records With      Authorized      in Excess of
   FY         FY       Vendor with RCC        RCC            Amount            MAPS

  1999        106          16,690         $1,662,139.38       15,368          $999,041.17

  2000        102          18,114          1,957,752.27       17,051         1,276,409.59

  2001        102          17,888          1,976,448.35       16,652         1,336,227.52

  Total       310          52,692         $5,596,340.00      49,071         $3,611,678.28

We believe that the RCC is not a part of the TX-DDS fee schedule. The SSA Regional
Office and TX-DDS disagreed with us. We believe that SSA needs to obtain a formal
determination from its Office of General Counsel to resolve this issue. We believe that
SSA should recover the payments in excess of MAPS unless the Office of General
Counsel makes a formal determination that the RCC is part of TX-DDS’ official fee
schedule.

Indirect Cost Associated with Reduction in CE Costs

Indirect costs for TX-DDS are determined under a negotiated annual indirect cost rate
agreement. The TX-DDS computes its indirect costs by multiplying the approved
percentage rate to the direct costs of the TX-DDS. Some direct costs, such as, (capital)
equipment, building alterations, and renovations are not to be included as part of the
base. The annual indirect cost rate is for a State FY (September 1st through
August 31st). CE costs are included in the base for the computation of indirect costs.

As a result of the excess CE payments discussed above, indirect costs claimed by the
TX-DDS were improperly increased. A reduction in CE costs because of payments in
excess of the authorized fee schedule would also result in a reduction in the direct cost
base. The reduction in the direct cost base has a similar effect on indirect costs,
Page 6 – Horace L. Dickerson, Jr.

lowering the amount computed by its rate percentage. The following schedule
computes the amount of the reduction of indirect costs.

                                     Direct Cost Base Reduction and
                                  Subsequent Reduction in Indirect Costs

                                                           CE              Indirect      Computed
                                                        Amount in           Rate in     Reduction in
   FY                  Period of Time                    Excess             Effect     Indirect Costs

  1999    October 1998 thru August 1999                       $908,625         12.4%            $112,669
          September 1999                                        90,416           11%               9,946
          FY 1999 Total                                        999,041                           122,615

  2000    October 1999 thru August 2000                       1,161,104          11%             127,721
          September 2000                                        115,306         7.8%               8,994
          FY 2000 Total                                       1,276,410                          136,715

  2001    October 2000 thru August 2001                       1,213,563         7.8%              94,658
          September 2001                                        122,665        12.6%              15,456
          FY 2001 Total                                       1,336,228                          110,114

Total All Years                                              $3,611,679                         $369,444

We believe the SSA Regional Commissioner should instruct the TX-DDS to conform to
the POMS by adhering to MAPS, the authorized fee schedule, for paying hospital
provider CEs. Lastly, the RO should more closely monitor TX-DDS fees paid for CEs.

CONCLUSIONS AND RECOMMENDATIONS

TX-DDS needs to improve and/or institute controls to ensure reasonable payment for
CEs. . However, in its comments to our draft report, the SSA Regional Office and TX-
DDS disagreed. Therefore, we have added a recommendation that SSA obtain an
opinion from SSA’s Office of General Council as to whether the use of the RCC method
constitutes a fee schedule in accordance with POMS and Federal regulations. We
believe SSA should implement recommendations 2 and 3 below unless SSA Office of
General Counsel makes a formal determination that the RCC is part of the TX-DDS fee
schedule in accordance with POMS DI 39545.210, 1.b. As a result of our audit, we
recommend that:

1. SSA require that TRC adhere to POMS DI 39545.210, 1.a., requiring CE payment
   amounts not to exceed the authorized fee schedule and specifically, discontinue
   selectively paying Texas hospitals higher amounts than the approved fee schedule.

2. TRC, pending the SSA Office of General Counsel’s determination, reimburse SSA
   $3,611,679, resulting from CE payments in excess of the authorized fee schedule
Page 7 – Horace L. Dickerson, Jr.

   known as MAPS. The TX-DDS should adjust their financial reports, Forms SSA-
   4513, accordingly.

3. TRC, pending the SSA Office of General Counsel’s determination, reimburse SSA
   $359,515 for indirect costs paid as a result of the overstated direct cost base (CEs in
   excess of MAPS.) The TX-DDS should adjust the financial reports, Forms SSA-
   4513, accordingly.

4. SSA’s Dallas RO more closely monitor the fees paid by TRC for CEs.

5. SSA seek a legal opinion as to whether the use of the RCC method, which allows
   the TX-DDS to pay hospital providers a percentage of their normal customary billing
   amount for CEs, constitutes a fee schedule in accordance with POMS and Federal
   regulations. SSA should then establish a clear policy on contracts with CE vendors
   and ensure that policy is implemented consistently across the DDSs. (This is a new
   recommendation added to our final report which was not included in the draft report
   provided to SSA and TRC for comments.)

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with Recommendations 1 and 4, but did not concur with Recommendations
2 and 3. TRC disagreed with Recommendations 1, 2 and 3. SSA and TRC’s
comments are included in Appendices C and D, respectively.

With regard to Recommendation 1, SSA stated it will work with TRC to exclude the DDS
from a State practice of paying negotiated fees for testing performed at hospital
facilities. TRC commented that on a prospective basis, the TX-DDS has begun
addressing this issue and is devising immediate plans regarding routine payment of
contracted fees to hospitals. The DDS expected to begin implementation of these plans
in January 2004. However, TRC did not agree that payments under the RCC made in
excess of the fee schedule should be reimbursed to SSA.

For Recommendations 2 and 3, both SSA and TRC disagreed with reimbursing the
excess funds drawn by the DDS. In SSA’s response, the Regional Commissioner
stated it is difficult to know what happened in the past since the staff making earlier
decisions are no longer overseeing DDS operations and may have discussed the
TX-DDS’ RCC method. TRC indicated that before the RCC method was established,
extensive research, study, and vendor negotiations were undertaken to arrive at rates
that would assure clients received quality medical services at the best price. SSA’s
comments, in and of themselves, do not provide sufficient evidence of whether the
Regional Commissioner or his staff gave explicit or implicit approval of the TX-DDS’ use
of the RCC methodology. The Agency, in consultation with its Office of General
Counsel, needs to determine if the excess CE costs and related indirect costs should be
recovered. Therefore, we revised our second and third recommendations, and we have
added a new recommendation that SSA seek a legal opinion on whether the RCC
Page 8 – Horace L. Dickerson, Jr.

method constitutes an allowable fee schedule under POMS and Federal regulations.
We shared our revised recommendations with the Regional Commissioner. The
Regional Commissioner agreed that it may be helpful to obtain an Office of General
Counsel opinion regarding the acceptability of RCC payment rates. With respect to our
recommendations that SSA seek reimbursement, the Regional Commissioner continues
to request that these recommendations be removed, or at least deferred until the legal
issues have been resolved. Recommendations 2 and 3 were revised to state that SSA
should seek reimbursement “pending Office of General Counsel determination.” We
believe our revised recommendations address the Regional Commissioner’s concerns.

With regard to Recommendation 4, SSA stated it will establish a process to monitor a
sample of CE fee payments as part of its oversight process.



                                              S                 for
                                              Steven L. Schaeffer
                                      Appendices
Appendix A – Acronyms

Appendix B – Texas Disability Determination Services Obligations Reported/Allowed

Appendix C – SSA Comments

Appendix D – DDS Comments

Appendix E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
Act             Social Security Act
CE              Consultative Examination
CFR             Code of Federal Regulations
CPT             Current Procedural Terminology
DDS             Disability Determination Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
MAPS            Maximum Allowable Payment Schedule
MER             Medical Evidence of Records
OIG             Office of Inspector General
POMS            Program Operations Manual System
RCC             Rate of Cost to Charge
RO              Regional Office
SSA             Social Security Administration
SSI             Supplemental Security Income
TRC             Texas Rehabilitation Commission
Treasury        Department of the Treasury
TX-DDS          Texas Disability Determination Services
U.S.C.          United States Code
                                                                                                                                                  Appendix B

TEXAS DISABILITY DETERMINATION SERVICES
OBLIGATIONS REPORTED/ALLOWED FOR FY 1999

                                                                                 Fiscal Year 1999
                                                                                                                                                                              Total
                                                               Disbursements                                               Unliquidated Obligations                        Obligations
                                      Personnel      Medical       Indirect       All Other      Total        Personnel    Medical    Indirect    All Other    Total
   As Reported by State Agency:


   Personnel                          $37,783,724                                              $37,783,724                                                         $0        $37,783,724

    Medical Evidence of Record
   (MER)                                             $5,936,796                                   5,936,796                                                            0      $5,936,796
    Consultative Examination (CE)                    22,432,840                                 22,432,840                                                             0     $22,432,840

   Indirect                                                        $9,028,723                     9,028,723                                                            0      $9,028,723

   All Other                                                                      $7,754,737      7,754,737                                                            0      $7,754,737

        Total Claimed for TX-DDS      $37,783,724   $28,369,636    $9,028,723     $7,754,737   $82,936,820            $0         $0          $0           $0       $0        $82,936,820


   1. To Adjust CE's Paid in Excess                   ($999,041)                                 ($999,041)                                                       $0          ($999,041)


   2. To adjust Indirect Cost as
   a result of reduction in direct
   cost base caused by CE's
   in excess.                                                       ($122,615)                    (122,615)                                                        0          ($122,615)

                Adjusted Costs        $37,783,724   $27,370,595    $8,906,108     $7,754,737   $81,815,164           $0         $0          $0           $0       $0         $81,815,164




Administrative Costs Claimed for the Texas DDS (A-15-02-12051)                                                                                                               B-1
                                                                                                                                             Appendix B

TEXAS DISABILITY DETERMINATION SERVICES
OBLIGATIONS REPORTED/ALLOWED FOR FY 2000

                                                                           Fiscal Year 2000
                                                                                                                                                                         Total
                                                           Disbursements                                              Unliquidated Obligations                        Obligations
                                   Personnel     Medical        Indirect     All Other      Total        Personnel    Medical    Indirect    All Other    Total
As Reported for TX-DDS:


Personnel                          $38,814,057                                            $38,814,057                                                         $0        $38,814,057

MER                                               $6,308,414                                 6,308,414                                                            0      $6,308,414
CE                                                22,499,668                               22,499,668                                                             0     $22,499,668

Indirect                                                        $7,797,102                   7,797,102                                                            0      $7,797,102

All Other                                                                    $5,424,865      5,424,865                                                            0      $5,424,865

     Total Claimed for TX-DDS      $38,814,057    28,808,082    $7,797,102   $5,424,865   $80,844,106            $0         $0          $0           $0       $0        $80,844,106


1. To Adjust CE's Paid in Excess                 ($1,276,410)                             ($1,276,410)                                                       $0         ($1,276,410)


2. To adjust Indirect Cost as
a result of reduction in direct
cost base caused by CE's
in excess.                                         (136,715)                                 (136,715)                                                        0          ($136,715)

             Adjusted Costs        $38,814,057   27,394,958     $7,797,102   $5,424,865   $79,430,982           $0         $0          $0           $0       $0         $79,430,982




Administrative Costs Claimed for the Texas DDS (A-15-02-12051)                                                                                                         B-2
                                                                                                                                                  Appendix B

TEXAS DISABILITY DETERMINATION SERVICES
OBLIGATIONS REPORTED/ALLOWED FOR FY 2001

                                                                              Fiscal Year 2001
                                                                                                                                                                           Total
                                                            Disbursements                                               Unliquidated Obligations                        Obligations
                                   Personnel      Medical       Indirect       All Other      Total        Personnel    Medical    Indirect    All Other    Total
As Reported for TX-DDS:


Personnel                          $39,901,349                                              $39,901,349                                                                   $39,901,349

MER                                               $6,305,076                                   6,305,076                  $1,124                             $1,124        $6,306,200
CE                                                22,885,882                                 22,885,882                 14654.84                             14,655       $22,900,537

Indirect                                                        $6,294,850                     6,294,850                            1861.86                    1,862       $6,296,712

All Other                                                                      $7,868,654      7,868,654                                                            0      $7,868,654

     Total Claimed for TX-DDS      $39,901,349   $29,190,958    $6,294,850     $7,868,654   $83,255,811            $0    $15,779      $1,862           $0   $17,640       $83,273,451


1. To Adjust CE's Paid in Excess                 ($1,336,228)                               ($1,336,228)                                                        $0        ($1,336,228)


2. To adjust Indirect Cost as
a result of reduction in direct
cost base caused by CE's
in excess.                                                       ($110,114)                    (110,114)                                                            0      ($110,114)

             Adjusted Costs        $39,901,349   $27,854,730    $6,184,736    $7,868,654    $81,809,469           $0    $15,779      $1,862           $0    $17,640       $81,827,109




Administrative Costs Claimed for the Texas DDS (A-15-02-12051)                                                                                                            B-3
               Appendix C

SSA Comments
                                          SOCIAL SECURITY
MEMORANDUM

Date:     December 18, 2003

To:       Steve L. Schaeffer
          Assistant Inspector General for Audit

From:     Horace L. Dickerson, Jr.
          Regional Commissioner
          Dallas

Subject   Administrative Costs Claimed by the Texas Disability Determination Services
:         (A-15-02-12051) -- Reply


          We appreciate the opportunity to comment on this draft report and to clarify some of the
          points discussed during the telephone call that was used in lieu of a formal exit
          conference. In concluding that consultative examination (CE) payments exceeded the
          authorized fee schedule, it appears the auditors assumed that the fees listed in the
          Maximum Allowable Payment Schedule (MAPS) are the only CE fees in use, and that
          the term “Maximum Allowable” in the name of the Texas DDS payment schedule has
          the same meaning as the phrase “maximum allowable” in DI 395245.210.2.

          Actually, Texas DDS CE payments were made following the fee procedures in use by
          the DDS’ parent agency, the Texas Rehabilitation Commission (TRC.) The maximum
          allowable fee that TRC pays for tests performed in certain hospital facilities and billed
          separately (not as a part of a physician’s fee) is a negotiated percentage of usual and
          customary charges described as the “RCC rate.” We believe the issue should not be
          that CE payments exceeded the fee schedule, but whether these RCC rates and fees
          meet the guidelines established in CFR 404.1624 and in POMS. Since the same RCC
          fees were being used by TRC, another State agency, when making similar purchases,
          we believe the regulatory requirement is met.

          We also believe the draft audit report imposes requirements which go beyond the
          written instructions and guidelines available to the DDS at the time the expenditures
          were made. The audit report appears to conclude that the negotiated RCC rates are
          not part of the Texas fee schedule and, therefore, not appropriate unless accompanied
          by a waiver from SSA. We are aware of no such written instruction or guideline to that
          effect. If this finding leads to a change in SSA policy, we can certainly implement it
          prospectively, ensuring that the Texas DDS discontinue paying negotiated rates to
          Texas hospitals for laboratory and other testing. But in requesting reimbursement, the
          audit seeks to apply this policy retroactively to the audit period.



                                                         C-1
The audit report misstates comments that the Regional Office had no knowledge of
deviations from the authorized fee schedule. We did not discuss deviations from the fee
schedule during the audit conference call. Our comment was that the RCC rates had
been implemented a number of years ago when different SSA and DDS employees
were involved in overseeing these issues, and that we are not sure what may or may
not have been discussed by those individuals. Over the years that this practice has
been in place, including the years covered by this audit, the issue has never been
questioned by any of the auditors conducting State audits.

Our responses to individual recommendations are as follows.

Recommendation Number 1: Adhere to POMS DI 39545.210, 1.a., requiring CE
payment amounts not to exceed the authorized fee schedule and specifically,
discontinue selectively paying Texas hospitals higher amounts than the approved fee
schedule.

We concur. We will work with the State of Texas to exclude the DDS from a State
practice of paying negotiated fees for testing performed at hospital facilities.

Recommendation Number 2: Reimburse SSA $3,611,679 resulting from CE payments
in excess of the authorized fee schedule known as MAPS. The TX-DDS should adjust
their financial reports, Forms SSA-4513, accordingly.

We disagree. The auditors are in effect establishing a new policy that the negotiated
RCC rates are not an acceptable practice. CFR 404.1627(b)(2) states that DDS
expenditures will be audited on the basis of cost principles and written guidelines in
effect at the time the expenditures were made or incurred. We should not apply this
new policy retroactively.

Recommendation Number 3: Reimburse SSA $359,515 for indirect cost paid as a
result of the overstated direct cost base (CEs in excess of MAPS.) The TX-DDS should
adjust the financial reports, Forms SSA-4513, accordingly.

We disagree. Please see our comments to recommendation number 2.

Recommendation Number 4: SSA’s Dallas Regional Office more closely monitor the
fees paid for CEs.

We concur. We will establish a process to monitor a sample of CE fee payments as
part of our CE oversight process.

If you would like to discuss this, please call me. If members of your staff have
questions, please have them call Tom Berling at 214-767-4281 in Management and
Operations Support, Center for Disability.




                                              C-2
               Appendix D

DDS Comments
Letter to the Office of Inspector General, Social Security Administration
January 12, 20041
Page 1

Steven L. Schaeffer, Assistant Inspector General for Audit
Social Security Administration
6401 Security Boulevard
4-L-1 Operations Building
Baltimore, MD 21235

Dear Mr. Schaeffer:

Thank you for the opportunity to respond to your draft audit report, which we received December 15,
2003. TRC Commissioner, Vernon M. Arrell has left TRC. As Interim Commissioner for TRC, I offer
the following comments:

The SSA OIG has issued a finding stating that the Texas DDS has utilized CE payment procedures that
are contrary to 20 CFR 404.1624 and POMS DI 39545.210,1.a. requirements.

According to 20 CFR 404.1624, “The State will determine the rates of payment to be used for purchasing
medical or other services necessary to make determinations of disability. The rates may not exceed the
highest rate paid by Federal or other agencies in the State for the same or similar type of service. The
State will maintain documentation to support the rates of payment it uses.”

POMS DI 39545.210,1.b. states, “The DDS will consider its fee schedule as a maximum payment
schedule. Authorized payments will represent the lower of either:
 •  The provider's usual and customary charge or,
 •  The maximum allowable charge under the fee schedule. “
POMS DI 39545.210,1.d. also states that, “the rates must be reasonable and necessary for the efficient
administration of the program.”

The TX DDS uses the fee schedule developed and utilized by the Texas Rehabilitation Commission
(TRC), its parent administrative support agency. Texas is a geographically and economically diverse
state. Therefore, development of this fee schedule was tailored to allow our agency to serve the disabled
population of Texas through diligent pursuit of quality services for the most economical price. Thus,
TRC’s fee schedule is comprised of essentially two parts, one that represents maximum charges for the
majority of the medical procedure vendors (MAPS) and the other that represents maximum charges for
individual hospital vendors. TRC does not view these as independent parts, but rather as one
comprehensive guide for payment of medical services.

Historically, many Texas hospitals have been unwilling to accept MAPS level fees because they consider
their own charges to include administrative service charges, hospital facility and equipment use, technical
and/or professional time, drugs/supplies, and documentation requirements. Hospital services are critical
to TRC’s mission. They have also provided TX DDS with an avenue to quickly obtain medical evidence
at locations convenient to their claimants to help expedite their disability claim determinations. TRC has
negotiated fees with our hospital vendors that are lower than their usual and customary charges. TRC
believes that this process satisfied requirements set out in POMS DI 39545.210, 1. b. and d.

TRC’s fee assessment method was developed many years ago. It involved extensive research, study, and
vendor negotiations to arrive at rates that would assure our clients receive quality of medical services at
the best price. This practice enables TRC to serve the maximum number of people requiring our services.

                                                        D-1
Letter to the Office of Inspector General, Social Security Administration
January 12, 20042
Page 2


This process has been evaluated yearly, adjusted where necessary, and documented to support its structure
and content. TRC believes our process satisfied the requirements set out by 20 CFR 1624.

Based on the information we have provided concerning the parameters of TRC’s fee schedule and our
interpretation of federal regulations and policies, we do not agree with the SSA OIG issue that TX DDS
exceeded the authorized TRC fee schedule. Rather, we utilized both parts of this schedule as required by
agency policy. We believe the TX DDS has operated in good faith these many years and that the use of
the TRC fee schedule satisfied all CFR and POMS directives. We have had no notice to the contrary
from our Federal partners nor has any issue been brought forth in this area in any of our audits by State
auditing entities.

However, on a prospective basis, TRC acquiesces to this recent interpretation by the SSA OIG in both the
spirit of following federal law and policy as well as supporting future savings of federal funds.
Accordingly, TX DDS has begun addressing this issue and is devising immediate plans regarding routine
payment of contracted fees to hospitals. TX DDS expects to begin implementation of these plans in
January 2004. As you have noted in your report, there are nearly two hundred vendors that will have to
be contacted for new fee negotiations and arrangements. This intensive outreach process will take several
months to complete.

We strongly disagree with the SSA OIG recommendation that there should be reimbursement of alleged
excess CE fee payments of $3,611,678 as well as the concomitant $359,515 alleged excess indirect costs.

We respectfully request that these retroactive amounts be waived for the following reasons.
•   Federal regulations give the State of Texas the right to determine the rates of payment to be used for
    purchasing medical or other services necessary to make determinations of disability.1
•   The TX DDS has not exceeded the TRC fee schedule.
•   The payments were assessed on the basis of a difference in interpretation of the fee schedule
    developed by TRC, not as a result of accidental or deliberate accounting errors.
•   TX DDS has taken steps to redesign their hospital CE fee process to bring it into alignment with the
    SSA OIG interpretation and recommendation.
•   Loss of funding on this scale would be extremely detrimental to the ability of TX DDS to serve
    disabled claimants.

Reimbursements based on interpretations of this nature are not uniformly assessed in SSA OIG
administrative costs audits.2 We have reviewed 15 recent SSA OIG audits of DDS agencies in other
states. All audits looked at whether each state’s DDS followed Code of Federal Regulations and Social
Security Administration requirements for consultative exam allowable costs. A finding of unallowable CE
medical costs, similar to that proposed for Texas TRC DDS, was made in four of the fifteen audits
reviewed: California, Illinois, Kansas, and New Mexico. The SSA OIG recommended reimbursement of




1
  20 CFR 404.1624
2
  Office of the Inspector General, SSA Administrative Costs Audits A-09-02-22022, specialty exam coding and
related costs issue; A-05-02-22109, consultative exam fee setting issue; A-06-03-13016, CE excess payments
issue.
                                                       D-2
Letter to the Office of Inspector General, Social Security Administration
January 12, 20043
Page 3


the fees in question in only two of those four audits (Kansas and California). It is unknown whether the
SSA Regional Offices support these proposed refunds, and whether the findings have been waived
subsequent to the audits.


Sincerely,



Mary Wolfe


cc: Ed Bloom, Deputy Commissioner for Disability Determination Services
    Alex McAlmon, Associate Commissioner for Management Audit, TRC




                                                       D-3
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

     Frederick Nordhoff, Director, (410) 966-6676

     Lance Chilcoat, Audit Manager, (410) 965-9743

Staff Acknowledgments
In addition to those named above:

     Sigmund Wisowaty Jr., Senior Auditor

     Jackie Patel, Senior Auditor

     Steven Sachs, Senior Auditor

     Richard Wilson, Senior Auditor

     Sandra Westfall, Senior Program Analyst

     Brennan Kraje, Statistician

     Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-15-02-12051.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                       Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.
                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Chief Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
